   U.S. DEPARTMENT OF COMMERCE
             Office of Inspector General




      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

                           Follow-up Audit
              Inspection Report OSE-15676
 “Acquisition of NEXRAD Transition Power
 Source Marred by Management, Technical,
                And Contractual Problems”

   Audit Report No.BSD-17613-5-0001/September 2005




               PUBLIC RELEASE




        Office of Audits, Business and Science Audits Division
                                        ..... ~~




                                                    UNITED STATES DEPARTMENT OF COMMERCE

                                                    The Inspector General
                                                    Washington . D. C. 20230
                                        - "'TEs ~




 SEP 3 0 
    2005



 MEMORANDUM FOR:	               John J. Kelly, Jr.

                                Deputy Undersecretary for Oceans and Atmosphere




 FROM:	                         Johnnie E.




 SUBJECT:	                     Follow-up Au 0 Inspection Report OSE- 15676

                               Acquisition ofNEXRAD Transition Power

                               Source Marred by Management, Technical, and

                               Contractual Problems

                               Audit Report No. BSD- 17613- 0001


In September 2003 , the Office ofInspector General issued Inspection Report OSE- 15676
Acquisition of NEXRAD Transition Power Source Marred by Management, Technical
and Contractual Problems in response to letters from then- Representative Constance A.
Morella, and Representative Chris Van Hollen to the Secretary of Commerce. Both
congressQ!en expressed concerns about a contract the National Oceanic and Atmospheric
Administration (NOAA) issued for the acquisition ofNEXRAD transition power sources
and a subsequent modification of that contract. In general , both wanted to know if: (1)
the National Weather Service paid for defective equipment, and (2) the actions ofthe
NOAA contracting officer with regard to the contract modification that changed to a
different transition power source received proper review and oversight?

The OlG found that the National Weather Service did in fact pay for defective
equipment, and that the questioned modification was executed without sufficient
evaluation, serious consideration of any other alternatives , adequate negotiation, and
withoufproper review and oversight by NOAA' s Acquisition and Grants Office (AGO).
The OIG report made specific recommendations to address the problems , which focused
on four key areas: (1) program office management issues , (2) contracting officer
representatives ' technical management responsibilities , (3) acquisition office
responsibilities , and (4) professional training. Although NOAA , in it' s written response




                                                                                      ~OFCOMMB~~
U.S. Department of Commerce                                                 BSD-17613-5-0001
Office of Inspector General                                                   September 2005

to the draft report, took exception to many of the findings in the report, it did agree with
all of the recommendations and on November 21, 2003, submitted an action plan with
seven specific actions for implementing the recommendations. We conducted this
follow-up performance audit to determine if NOAA had taken the corrective actions
detailed in its action plan.

Objectives, Scope, and Methodology

The objective of this audit was to determine whether NOAA has implemented the actions
outlined in its action plan dated November 21, 2003. We reviewed NOAA’s action plan
and status reports detailing the actions taken and level of completion. We examined
documents supporting the agency’s reported implementation actions and discussed these
actions with NOAA Acquisition and Grants Office and NWS personnel at Headquarters
and at the Radar Operations Center. Additionally, we conducted limited testing to
determine whether reported corrective actions were implemented. We selected from the
Enterprise-Wide Acquisition Reporting System (EARS)1 a random sample of NOAA
contract awards exceeding $100,000 issued in fiscal year 2005. From a universe of 36
contract awards totaling $11,165,843 processed by NOAA’s Acquisition and Grants
Office, Silver Spring, we selected 16 contract awards in the amount of $7,949,514 for
review. We used the results of our review to determine whether contracts were receiving
the level of review outlined in the NOAA Acquisition Handbook, and whether
contracting officer representatives (COR) were being properly appointed.

We did not evaluate the adequacy of internal controls over the management, technical,
and contractual aspects of the NEXRAD Transition Power Source. Additionally, we did
not assess the reliability of computer-generated data because it was not relevant to our
audit objectives.

We conducted our audit from June to September 2005, in accordance with Government
Auditing Standards issued by the Comptroller General of the United States and under the
authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended.

Findings

NOAA reported on December 15, 2004 that the seven actions outlined in the NOAA
Action Plan, dated November 21, 2003, with concurrence by the Office of Inspector
General on January 8, 2004, were completed or would be completed by December 31,
2004. Based on our review, we found that NOAA generally has taken the actions
outlined in the plan; we did note, however, that some improvements are needed to the
Acquisition Handbook in order for NOAA to fully address all of the issue areas outlined
in the plan. Additionally, contracting staff needs to be more diligent in ensuring that
CORs are clearly identified and qualifications are documented in the contract files. Each
of the elements of the NOAA Action Plan, along with the OIG’s findings, is specifically
discussed below.
1
    EARS is the Department of Commerce contract reporting system.


                                                    2

U.S. Department of Commerce                                              BSD-17613-5-0001
Office of Inspector General                                                September 2005

NOAA Action 1: NOAA staff will develop a NOAA Acquisition Handbook. The
NOAA Acquisition Handbook will be completed in October 2004. (The Handbook is
to address 13 issue areas.)

The NOAA Acquisition Handbook was published October 31, 2004. It provides
guidance for NOAA acquisition personnel on all levels. It addresses the responsibilities
of the acquisition staff and supplies examples of how the contract file should be set up
and what elements should be included. The Handbook also contains a policy that
specifies when solicitations and contractual awards must be reviewed by NOAA contract
officials and Office of General Counsel attorneys. This is a key tool in ensuring adequate
oversight of NOAA acquisitions. We found that the Handbook, overall, contained
language to address key areas outlined in the NOAA action plan; however, we found that
the Handbook does not provide guidance regarding:

   1.	 Alternatives - how all reasonable alternatives are analyzed, evaluated, and 

       documented. 

   2.	 Technology reviews – how tradeoffs are evaluated; how the technical evaluation
       is to be conducted and documented; the assessment of technology risks and
       maturity; and the presentation of technical performance, schedule, and cost risk.
   3.	 Contract changes – evaluation of post award changes and cost considerations; or
       documenting and briefing proposed decisions, findings, and recommendations for
       contract changes.

NOAA Action 2: NWS staff, in concert with NOAA, will develop and implement a
NWS Procurement Policy Directive. The procurement directive will establish NWS
policy for compliance with Federal, Department, and NOAA regulation as
delineated in the NOAA Acquisition Handbook. Both the directive and the instruction
were to be finalized in December 2004. (The policies are to address nine issue areas.)

NWS issued Policy Directive 1-11 on October 15, 2004. It establishes authorities and
responsibilities for NWS managers and acquisition teams regarding the acquisition
process. It also establishes accountability for program managers, technical staff, and
contracting officer’s representatives over achieving cost, schedule, performance, and
technical objectives of the technology or service program. NWS Instruction 1-1101 was
issued on January 13, 2005, and provides guidance to NWS staff in planning, developing,
soliciting, awarding, and administering acquisitions. It provides for establishing an
Integrated Project Team (ITP) for any single acquisition or single program involving
multiple acquisitions exceeding $10 million and requires that each IPT establish a charter
that identifies their purpose, composition, roles, responsibilities and authorities, scope
and deliverables. Overall, the directive and instruction address the nine issue areas
outlined in the NOAA action plan.

NOAA Action 3: The NOAA Procurement Official will assess acquisition training
needs to ensure that all staff have the necessary acquisition training, including cost
and price analysis and negotiation techniques to perform in various acquisition




                                            3

U.S. Department of Commerce                                                BSD-17613-5-0001
Office of Inspector General                                                  September 2005

positions (contracting officer, COTR, etc). Once the assessment is completed,
additional acquisition training will be accomplished.

The NOAA Procurement Official has completed assessments for AGO contracting staff
and NOAA CORs. Individual Development Plans have also been prepared for AGO
contracting staff. The Director, AGO, periodically reminds NOAA managers of the COR
training requirements as outlined in the Commerce Acquisition Manual 1301.670, and on
June 29, 2005, provided information regarding available training and course dates for the
rest of the fiscal year. The Director, AGO, briefs NOAA’s Deputy Under Secretary on a
quarterly basis on multiple topics, including the status of COR training.

NOAA Action 4: NOAA has added a procurement critical element to performance
plans of acquisition staff to ensure clear responsibility and accountability.
Beginning in March 2003, NOAA mandated the inclusion of a critical element in
performance plans of NOAA staff managing contracts. The procurement critical
element was added to NOAA performance plans in March 2003.

It is NOAA’s policy that COR performance plans contain a procurement critical element.
We verified that the performance plans for the nine CORs assigned to the Radar
Operations Center contain the procurement critical element for the rating period October
1, 2004 to September 30, 2005. We also reviewed 16 contract awards from fiscal year
2005 to determine that when making COR assignments, contracting staff verified that the
critical element was in the candidates’ performance plan. Of the 16 awards, we found
two instances where a COR was designated, but the file did not contain documentation as
to whether the COR has the critical element in their performance plan. The remaining 14
awards contained a Point of Contact (POC) rather than a COR but did not contain
documentation regarding the appointment of a POC rather than a COR. Additionally, the
14 files did not contain a determination that required training had been completed. We
brought this to the attention of the Director, AGO, who issued Acquisition Alert 05-06 on
August 25, 2005, requiring that when files are submitted for review and approval, they
include documentation on the need to appoint a COR or a POC and that the file include
validation of the inclusion of COR responsibilities as a critical element in the candidate’s
performance plan. The Alert also requires documentation to be included in the award file
regarding the proposed COR’s or POC’s fulfillment of the training requirements outlined
in the Commerce Acquisition Manual 1301.670.

NOAA Action 5: NOAA’s Radar Operations Center (ROC) will conduct periodic
coordination meetings with Weather Surveillance Radar, 1988 Doppler (WSR-88D)
tri-agency partners. ROC staff will begin periodic coordination meetings with tri
agency partners having similar hardware to the WSR-88D, effectively coordinate
activities, and share information and decisions among the NEXRAD tri-agency
partners. Major Acquisition decisions and status will be briefed to the Program
Management Committee in accordance with the tri-agency Memorandum of
Agreement. ROC staff will conduct coordination meetings with tri agency PMC
staff by December 2003 and will conduct such meetings periodically thereafter.




                                             4

U.S. Department of Commerce                                             BSD-17613-5-0001
Office of Inspector General                                               September 2005

Based on our review of minutes from tri-agency meetings held in 2004 and 2005, we
determined that NOAA has been coordinating activities and sharing information with its
tri-agency partners, the Department of Transportation and the Department of Defense.

NOAA Action 6: ROC staff will receive Performance Based Statement of Work and
Requirements training. ROC staff will complete training in November 2003.

We found that the required training was completed in November 2003.

NOAA Action 7: NOAA has established a Review and Approval of Proposed
Solicitations and Contract Awards Policy. The NOAA Procurement Official has
issued the policy for NOAA acquisitions based on the dollar value to the heads of
contracting offices. The NOAA Procurement Official issued Acquisition Instruction
04-01, Review and Approval of Proposed Solicitations and Contract Awards on
September 25, 2003.

The review and approval provisions outlined in the Acquisition Instruction 04-01 have
been incorporated in the NOAA Acquisition Handbook, issued October 31, 2004. Our
review of 16 contracts awarded by the NOAA AGO, Silver Spring, disclosed that the
appropriate reviews outlined in the Acquisition Handbook were conducted and the
appropriate approvals obtained.

In conclusion, NOAA has generally implemented the actions contained its action plan,
dated November 21, 2003, but still needs to make improvements to the Acquisition
Handbook to fully address the issue areas outlined in NOAA Action 1 of the action plan.
In order for NOAA to ensure desired outcomes from major system acquisitions, it will be
necessary for it to build on the improvements made in its acquisition and contract
monitoring activities.

Recommendation

We recommend that the Deputy Under Secretary for Oceans and Atmosphere ensure that
the Director, Acquisition and Grants Office, includes provisions in the NOAA
Acquisition Handbook regarding:

       1.	 Alternatives - how all reasonable alternatives are analyzed, evaluated, and
            documented.
       2.	 Technology reviews – what is necessary in establishing the acquisition plan;
            how tradeoffs are evaluated; how the technical evaluation is to be conducted
            and documented; and the presentation of technical performance, schedule, and
            cost risk
       3. 	 Contract changes including evaluation of post award changes and cost
            considerations; or documenting and briefing proposed decisions, findings, and
            recommendations for contract changes.




                                           5

U.S. Department of Commerce                                            BSD-17613-5-0001
Office of Inspector General                                              September 2005

We met with NOAA officials, prior to the issuance of this report, and they agreed with
our findings and the recommendation. As a result, no draft report was issued. In
accordance with DAO 213-5, please provide us with the audit action plan for our review
and concurrence addressing the report recommendations within 60 days of this
memorandum. Should you need to discuss the contents of this report or the audit action
plan, please call me at (202) 482-4661, or Allison Lerner, Acting Assistant Inspector
General for Audits on (202) 482-1934.

cc: 	 Helen Hurcombe, Director, Acquisition and Grants Office
     John McNulty, Director, Office of Operational Systems, NWS
     Mack Cato, NOAA Audit Liaison




                                           6

